App&J&'X
Supreme Court of jflorfoa
WEDNESDAY, JANUARY 13, 2021
CASE NO.: SC20-1060
Lower Tribunal No(s).:
3D20-547; 132015CF0010830001XX
JOHN J. WILSON JR.

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This cause having heretofore been submitted to the Court on jurisdictional
briefs and portions of the record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the Court having determined that
it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing iwill be entertained by the Court. See Fla. R. App.
P. 9.330(d)(2t
POLSTON, LAWSON, MUNIZ, COURIEL, and GROSSHANS, JJ., concur.
A True Copy
Test:

■v

John A. Tomasino
Clerk, Supreme Court
:U

dl
Served:
MICHAEL W. MERVINE
JOHN J. WILSON JR.
HON. HARVEY RUVIN, CLERK
HON. MERCEDES M. PRIETO, CLERK
HON. DAVA J. TUNIS, JUDGE

- v

ApptoJ&X fR
BtStrtct Court of appeal
State of Florida
Opinion filed April 8, 2020.
Not final until disposition of timely filed motion for rehearing.

No. 3D20-547
Lower Tribunal No. 15-1083

Provided To IV/Uoltif'

On \o['LZnj4^
For Mailing, bj^'

\
-----

John J. Wilson, Jr.,
Petitioner,
vs.
The State of Florida,
Respondent.

A Case of Original Jurisdiction - Ineffective Assistance of Appellate Counsel.
John J. Wilson, Jr., in proper person.
Ashley Moody, Attorney General, for respondent.

Before EMAS, C.J., and GORDO and LOBREE, JJ.
PER CURIAM.
Upon consideration, we deny John J. Wilson, Jr.’s petition for writ of habeas
corpus alleging ineffective assistance of appellate counsel. See Rutherford v. Moore,

*
»•
\

%

A
774 So. 2d 637, 643 (Fla. 2000) (observing that “‘[t]he criteria for proving
ineffective assistance of appellate counsel parallel the Strickland standard for
ineffective trial counsel.’ Wilson v. Wainwright, 474 So. 2d 1162, 1163 (Fla. 1985).
Thus, this Court's ability to grant habeas relief on the basis of appellate counsel's
ineffectiveness is limited to those situations where the petitioner establishes first,
that appellate counsel's performance was deficient because ‘the alleged omissions
are of such magnitude as to constitute a serious error or substantial deficiency falling
measurably outside the range of professionally acceptable performance’ and second,
that the petitioner was prejudiced because appellate counsel's deficiency
‘compromised the appellate process to such a degree as to undermine confidence in
the correctness of the result.’ Thompson Tv. State!, 759 So. 2d [650,] 660 [(Fla.
2000)] (quoting Groover v. Singletary, 656 So. 2d 424, 425 (Fla. 1995)). If a legal
issue ‘would in all probability have been found to be without merit’ had counsel
raised the issue on direct appeal, the failure of appellate counsel to raise the meritless
issue will not render appellate counsel's performance ineffective. Williamson v.
Dugger, 651 So. 2d 84, 86 (Fla. 1994)”) (additional internal citations omitted)). See
also Jones v. State, 658 So. 2d 122, 125 n. 2 (Fla. 2d DCA 1995) (noting that an
indigent defendant's act of filing a Bar complaint against court-appointed counsel
does not automatically create a conflict situation requiring the appointment of new
counsel).

2

